HHS/OIG, Audit -"Review of Duplicate Medicare Fee-for-Services Payments at Regence Blue Shield of Idaho,"(A-10-03-00003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Duplicate Medicare Fee-for-Services Payments at Regence Blue Shield of Idaho," (A-10-03-00003)
October 24, 2003
Complete
Text of Report is available in PDF format (797 KB).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether costs claimed on Regence BlueShield of Idahos
Calendar Year 2000 Medicare cost report were in accordance with the Medicare cost principles, and not for services reimbursed
under Medicares fee-for-service payment system.  We found that generally, Regence prepared the Medicare cost report
in accordance with Federal regulations.  However, Regence claimed costs of $39,660 for services provided to beneficiaries
under its health maintenance organization contract with Medicare that were previously reimbursed under Medicares fee-for-service
payment system.